                               Office of Inspector General
                              Corporation for National and
                                       Community Service




              AUDIT OF THE
     CORPORATION FOR NATIONAL AND
COMMUNITY SERVICE’S NATIONAL SERVICE TRUST
   SCHEDULE OF FISCAL 2003 BUDGETARY
       RESOURCES AND OBLIGATIONS

             Audit Report Number 04-03
                  October 31, 2003




                       Prepared by:

               COTTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia 22314




  This report was issued to Corporation management on November 19, 2003.
                                Office of Inspector General
                      Corporation for National and Community Service

               Audit of the Corporation for National and Community Service's
                                    National Service Trust
                Schedule of Fiscal 2003 Budgetary Resources and Obligations
                                     Audit Report 04-03


Introduction

In accordance with the Strengthen AmeriCorps Program Act, the Office of Inspector General
(OIG) engaged Cotton and Company LLP to audit the Corporation for National and Community
Service's National Service Trust Schedule of Fiscal 2003 Budgetary Resources and Obligations.
The Strengthen AmeriCorps Program Act requires an independent annual audit of the accounts of
the Corporation relating to the appropriated funds for approved national service positions, and the
records demonstrating the manner in which the Corporation has recorded Trust obligations.

The Strengthen AmeriCorps Program Act directs that, beginning in fiscal year 2003, Trust
obligations be recorded at the time the Corporation enters into an enforceable agreement with a
National Civilian Community Corps (NCCC) member, a member of Volunteers in Service to
America (VISTA), or a Senior Corps volunteer. In addition, the Act requires the Corporation to
record Trust obligations when it awards a grant to an AmeriCorps State and National program.
The Act also directs that the obligational amount be based on the estimated value of the education
benefit, factoring in enrollment estimates, earning and usage rates, and the time value of money.
The Act further requires the Corporation to establish a reserve account in the event that estimates
used to calculate obligational amounts are insufficient to pay for education awards.

In summary, Cotton and Company concluded that the Corporation's Schedule of National Service
Trust Schedule of Fiscal 2003 Budgetary Resources and Obligations presents fairly, in all
material respects, the budgetary resources and obligations for the year ended September 30,2003.

As is our responsibility, the OIG helped plan the auditors' work, evaluated the procedures
performed, monitored the audit's progress, and reviewed the auditors' work papers supporting the
conclusions in this report. Our review of the auditors' work papers disclosed no instances where
Cotton and Company did not comply, in all material respects, with generally accepted
government auditing standards.
                                                  auditors + advisors
        DAW L GIlTOX. O A CFE. G E b l ChAlUES H,\IX:W.O ha.  CISA       MICHhEL W. GLLLESPIE.
                                                                                           8 A CFE CA7HERIPUE L N m R h 8 A QSA
M ~ - r f a \ v HJOHNSON,
                  .      CPA. CGFM   S w HIDLEY,QA, CGFM               ~ WIISOS, CPA ALAV R ~ E WCPA
                                                           C C ) L F - Y.                             ,     LORENSCHWARTZ,CPA, ~   S   A




                                         INDEPENDENT AUDITORS' R E P O R T


        Inspector General
        Board of Directors
        Corporation for National and Community Service


        We have audited the accompanying National Service Trust Schedule of Fiscal 2003 Budgetary
        Rcsources and Obligations of the Corporation for National and Community Service (Corporation) for
        the year ended September 30, 2003. This schedule is the responsibility of Corporation management.
        Our responsibility is to express an opinion on this schedule based on our audit.

        We conducted our audit in accordance with auditing standards generally accepted in the United States
        of America and standards applicable to financial statement audits contained in Government Auditing
        Stmdur-ds, issued by the Comptroller General of the United States. Those standards require that we
        plan and perform the audit to obtain reasonable assurance that the schedule of budgetary resources and
        obligations is free of material misstatement. An audit includes examining, on a test basis, evidence
        supporting amounts and disclosures in the schedule of budgetary resources and obligations. An audit
        also includes assessing accounting principles used and significant estimates made by management, as
        well as evaluating overall schedule presentat~on.We believe that our audit provides a reasonable basis
        for our oplnion.

        The acconlpanying schedule of budgetary resources and obligations was prepared for the purpose of
        complying with the provisions of the Strengthen AmeriCorps Program Act (Public Law 108-45) as
        discussed in Note A and is not intended to be a presentation In conformity with accounting principles
        generally accepted in the United States of America.

        In our opinion, the National Service Trust Schedule of Fiscal 2003 Budgetary Resources and
        Obligations referred to above presents fairly, in all material respects, its budgetary resources and
        obligations for the year ended September 30,2003, on the basis of accounting described in Note A.

        In accordance with Government Auditing Standards, we have also issued our reports dated October
        3 1, 2003, on our consideration of the Corporation's internal control over financial reporting and on
        our tests of its compliance with provisions of laws and regulations. Our reports on internal control
        and comphance are an integral part of an audit conducted in accordance with Governlnent A~lditing
        Standards and should be read in conjunction with this report in considering the results of our audit.




                                    333 North Fairfax Street t Suite 401 t Alexdndrh, Virginia 22314
                        703/836/6701 t FAX 703/836/0941 t WWW.COTTONCI'A.COM t DCOITON@COITONaJAACOM
T h ~ report
      s      is intended solely for the information and use of the United States Congress, the President, the
Director of the Office of Management and Budget, Comptroller General of the United States, the
Corporation and its Inspector General, and is not intended to be and should not be used by anyone other
than these specified parties.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner

October 3 1. 2003
Alexandria. V~rginia
                        Corporation for National and Community Service
                                       National Service Trust
                   Schedule of Fiscal 2003 Budgetary Resources and Obligations
                                               (dollars in thousands)


 Resources
   Fiscal 2003 Appropriation
    Trust Reserve
 Total Resources

 Obligations
    Education Awards
    Interest Forbearance
    President's Freedom Scholarships
 Total Obligations

 Funds Available for Award



NOTES T O THE SCHEDULE
A. Basis of Accounting

The Schedule of Fiscal 2003 Budgetary Resources and Obligations for the National Service Trust (Trust)
has been prepared from the books and records of the Corporation in accordance with the Strengthen
AmeriCorps Program Act (Public Law 108-45,42 USC tj 12605) for the period commencing October 1,
2002 and ending September 30,2003.

The activities of the Trust are funded through the Veterans Affairs, Housing and Urban Development, and
Independent Agencies bill, which funds National and Community Service Act programs. Appropriations
are provided on a no-year basis for the Trust, a fund within the Corporation used to provide education
awards to eligible participants. Trust appropriations do not expire with the passage of time and are retained
by the Corporation in the Trust until used for eligible education award purposes.

The Trust provides awards for AmeriCorps members serving in approved national service positions under
AmeriCorps*State and National, AmeriCorps*NCCC, and AmeriCorps*VISTA, as well as for the
AmeriCorps Education Award Program, where sponsoring organizations are responsible for providing
member subsistence and other costs, and the Corporation provides an education award and a small amount
for administrative costs.

Funds from the Trust may be expended for the purpose of providing an education award or interest
forbearance payment and must always be paid directly to a qualified institution (college, university, or
other approved educational institution, or a lending institution holding an existing student loan) as
designated by the participant, as well as for payments under the President's Freedom Scholarship Program.

The recognition of budgetary accounting transactions is essential for compliance with legal constraints and
controls over the use of Federal fbnds. Budgetary accounting principles are designed to recognize the
obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an
accrual-based transaction. The Strengthen AmeriCorps Program Act directs that, beginning with fiscal
2003, Trust obligations be recorded at the time the Corporation enters into an enforceable agreement with
an individual participant to serve in a program carried out under subtitle E of title I of the National and
Community Service Act of 1990 (42 USC 5 12611 et seq.), or title I of the Domestic Volunteer Service Act
of 1973 (42 USC $4951 et seq.), or awards a grant to (or enters into a contract or cooperative agreement
with) an entity to carry out a program for which such a position may be approved under section 123 of the
Act (42 USC 3 12573). The Strengthen AmeriCorps Program Act also directs that the obligational amount
be based on the estimated value of the education benefit, discounted for the estimated enrollment, earning
and usage rates, and the time value of money.

For fiscal 2003, the Corporation used the following assumptions to calculate Trust obligations and
budgetary needs: full value of the education award, 100 percent enrollment rate, 80 percent earning rate,
and 80 percent usage rate. These enrollment, earning, and usage rates are more conservative than historical
rates used previously in determining the Corporation's budgetary needs.

B. Trust Reserve

As required by the Strengthen AmeriCorps Program Act, in fiscal 2003 the Corporation set aside in reserve
a portion of the funds appropriated to the Trust in the event that its estimates used to calculate obligational
amounts for education awards prove to be too low. As of September 30,2003, $10 million of the
Corporalion's investment account, which represents 10 percent of the amount originally appropriated to the
Trust in 2003, has been set aside for this reserve.
